                                                               Issue Date
                                                               May 13, 2011
                                                               
                                                               Audit Report Number
                                                               2011-BO-0001




TO:        Donald J. Lavoy, Deputy Assistant Secretary for Field Operations, PQ


FROM:



           For John A. Dvorak, Regional Inspector General for Audit, Region 1, 1AGA

SUBJECT:   Office of Public Housing, Boston, MA, Monitored Recovery Act Grants
           Awarded to Region 1 Public Housing Authority Grantees in Accordance With
           Applicable Requirements


HIGHLIGHTS

 What We Audited and Why

            We audited the monitoring practices that the Boston Office of Public Housing
            (PIH) used to monitor of American Recovery and Reinvestment Act of 2009
            (Recovery Act) supplemental capital formula and competitive grants awarded to
            public housing agencies in Region 1. The audit was conducted in accordance
            with a mandate to review the U.S. Department of Housing and Urban
            Development’s (HUD) awarding, disbursing, and monitoring of Recovery Act
            funds to determine whether there were safeguards to ensure that grantees used
            funds for their intended purposes. Our objective was to determine whether PIH
            (1) monitored Recovery Act grantees identified by the risk assessment process
            HUD established and implemented for selecting Recovery Act grantees for
            monitoring, (2) monitored grantees’ administration of the grant for compliance
            with Recovery Act requirements, and 3) provided increased transparency and
            adequate monitoring of expenditures.
What We Found


           PIH in Region 1 complied with HUD policies for monitoring Recovery Act
           grantees selected through the risk assessment process. It also monitored grantees’
           administration of the grant for compliance with Recovery Act requirements and
           provided increased transparency and adequate monitoring of Recovery Act
           expenditures. Therefore, our review of PIH’s monitoring for the grants tested did
           not result in the identification of any deficiencies.

           For grantees that could not meet the requirements of the Recovery Act, PIH in
           Region 1 recaptured Recovery Act funds according to applicable requirements
           and HUD monitoring policies. It recaptured more than $287,000 from three
           grantees that could not meet the requirements.


What We Recommend


           This report does not contain recommendations, and no further action is necessary
           with respect to our report.


Auditee’s Response


           We provided the Director of PIH in Region 1 a draft report on April 29, 2011, and
           held an exit conference on May 3, 2011. PIH did/did not provide formal written
           comments because the report contained no recommendations and HUD PIH. It
           agreed with our conclusion in the report.




                                            2
                           TABLE OF CONTENTS

Background and Objective                                                           4

Results of Audit
      PIH in Region 1 Adequately Monitored Its Recovery Act Grant Awards to PHAs   6
      in Accordance With Applicable Regulations and Requirements

Scope and Methodology                                                              7

Internal Controls                                                                  8

Follow-up on Prior Audits                                                          9




                                           3
                           BACKGROUND AND OBJECTIVE

On February 17, 2009, President Obama signed the American Recovery and Reinvestment Act
of 2009 (Recovery Act). Division A, Title XII, of the Recovery Act (PL 111-5) appropriated $4
billion for the Public Housing Capital Fund program to carry out activities of public housing
agencies (PHA), as authorized under Section 9 of the United States Housing Act of 1937. The
Act required that $3 billion of these funds be distributed as Public Housing Capital Fund formula
grants and the remainder be distributed through a competitive grant process. For both grant
types, the Recovery Act required the grantee or PHAs to obligate 100 percent of the funds within
1 year of the date on which funds became available to the agency for obligation and expend 60
percent within 2 years and 100 percent within 3 years of the availability date.

Administrative costs are covered as part of the Recovery Act program appropriation. These
costs reduced available formula grant funds to $2.985 billion, resulting in the award of one
formula grant to each of the U.S. Department of Housing and Urban Development’s (HUD)
3,134 PHAs. They also reduced available competitive grant funds to $995 million, which
resulted in awards of 396 competitive grants to 211 of these same PHAs. All PHAs were
required to submit an annual statement detailing the budget line items and the projects that would
benefit from the funding.

In Region 1,1 there were 170 PHAs, which had received more than $155.8 million in Recovery
Act capital formula grants as of December 31, 2010. In addition, in the same period, 20 of these
PHAs applied for and received funds totaling more than $109.8 million through 34 Recovery Act
competitive grants. The Boston Office of Public Housing (PIH) in Region 1 had reviewed 100
percent of the obligations for both the formula and competitive grants in Region 1. In addition,
PIH in Region 1 monitored the administration of 53 of the largest PHA formula grants, which
totaled more than $98 million (or 63 percent) of the formula grant funds awarded to the 170
PHAs in the region. Also, of the 34 competitive grants awarded in the region, PIH monitored the
administration of 19 of the largest grants, which totaled more than $93 million (or 85 percent) of
the competitive grant funds awarded to the PHAs in the region. As of December 31, 2010, PIH
was monitoring formula grant award expenditures totaling $79 million and competitive grant
award expenditures totaling $33 million.

    Recovery Act awards       All regions      All regions      Region 1         Region 1 
    Type grant                All formula     All competitive    Formula         Competitive 
    No. of grants               3,134               396            170           34 
    No. of PHAs                 3,134               211            170           20 
    Amount authorized        $2,985,000,000    $995,000,000     $155,887,389     $109,831,325

We reviewed 5 of the 53 formula grants and 15 of the 19 competitive grants that PIH in Region 1
monitored. The review encompassed 55 percent of the formula grant awards monitored and 96
percent of the competitive grant awards monitored.
1
 Six states including Connecticut, Maine, Massachusetts, New Hampshire, Rhode Island and
Vermont are administered through the HUD Office of Public Housing in Region 1. 


                                                  4
Our overall objective was to determine whether PIH (1) monitored Recovery Act grantees
identified by the risk assessment process HUD established and implemented for selecting
Recovery Act grantees for monitoring, (2) monitored these grantees’ administration of the grants
for compliance with Recovery Act requirements, and (3) provided increased transparency and
adequate monitoring of expenditures.




                                               5
                                        RESULTS OF AUDIT


PIH in Region 1 Adequately Monitored Its Recovery Act Grant Awards
to PHAs in Accordance With Applicable Regulations and Requirements
HUD PIH in Region 1 adequately monitored grantees’ administration of the Recovery Act
capital fund grants and the expenditures of formula and competitive Recovery Act grant funds
that were awarded to Region 1 grantees2 and recaptured funds as necessary. Therefore, it
complied with applicable regulations, checklists, and instructions established by HUD. Further,
PIH in Region 1 monitored 100 percent of its PHAs’ Recovery Act (formula and competitive)
grant obligations to ensure that all funds were obligated by the required deadlines.



    Onsite Monitoring


                   PIH in Region 1 conducted onsite monitoring of its Recovery Act formula
                   grantees and remote reviews of its Recovery Act competitive grantees in
                   accordance with Recovery Act (PL 111-5) and applicable HUD monitoring
                   strategies. PIH staff in Region 1 performed separate remote monitoring reviews
                   for obligations and expenditures of formula and competitive Recovery Act grant
                   funds for selected grantees in Region 1. In addition, PIH used the appropriate
                   checklists in performing its monitoring

                   PIH in Region 1 posted monitoring results using Microsoft SharePoint 2007,
                   together with Microsoft InfoPath, which was designed for distributing and filling
                   electronic forms. HUD approved this technology for use and adapted it to provide
                   increased transparency on Recovery Act obligations, expenditures and
                   monitoring.

                   All transmittals to the Office of Public and Indian Housing in Washington, DC,
                   were properly supported and documented, and PIH in Region 1 followed up on
                   outstanding issues and promoted transparency and accountability as required by
                   the Recovery Act.


    Funds Obligated


                   PIH in Region 1 monitored 100 percent of its PHAs’ Recovery Act (formula and
                   competitive) grant obligations to ensure that all funds were obligated by the

2
    The grantees were all PHAs located in Region 1.


                                                      6
             required deadlines. This process included a determination of the validity of the
             obligation, and there were no exceptions noted. In addition, PIH in Region 1
             continued monitoring its grantees to ensure that grants were properly administered
             according to the Recovery Act.


Funds Expended


             PIH in Region 1 monitored each grantee to ensure that it would expend at least 60
             percent of its competitive grants by the dates established by the Recovery Act.
             Apart from those PHAs that were not able to meet expenditure deadline
             requirements, drawdowns were on track to meet the 60 percent expenditure
             requirement.


Recaptured Funds


             PIH in Region 1 followed HUD monitoring and recapture policies and continually
             monitored Recovery Act funds that were awarded. It also recaptured funds from
             PHAs that were unable to meet requirements when necessary. Therefore, PIH in
             Region 1 recaptured $33,016 from the Webster Housing Authority, $116,774 from
             the North Adams Housing Authority, and $137,666 from the Fitchburg Housing
             Authority because these grantees were unable to meet requirements to expend the
             funds.


Conclusion


             PIH in Region 1 complied with HUD monitoring directives and administered its
             Recovery Act grants in accordance with Recovery Act requirements. Generally,
             PIH in Region 1 implemented systems for tracking accounting for and monitoring
             selected grantee administration of the Recovery Act grants according to HUD
             policies. For the grants reviewed, PIH adequately and sufficiently monitored the
             Recovery Act funds that were awarded to and expended by its grantees, provided
             increased transparency by posting the results of the monitoring, and recaptured
             funds as necessary. Our review did not result in the identification of any
             deficiencies.




                                              7
Recommendations

          Based on the results of this audit, the audit report contains no recommendations, and
          no further action is necessary with respect to our report.




                                            8
                                 SCOPE AND METHODOLOGY

As part of our annual plan, our overall objective was to determine whether PIH in Region 1
monitored grantees for compliance with Recovery Act requirements and provided adequate
monitoring of expenditures. Audit work was performed at the PIH office in Region 1. The
review did not evaluate the risk assessment process established and implemented by HUD
because it was outside the scope of this review. Our audit covered the period January 2009
through December 2010 and was extended when necessary to meet our objectives.

To accomplish our audit objectives, we
    Interviewed PIH in Region 1’s Director and Deputy Director regarding monitoring and
       recapture procedures;
    Reviewed and evaluated documentation available in the InfoPath SharePoint System to
       determined whether system was reliabile and the Data within it was secure, and that it
       provided PIH with an accurate, efficient complete, and transparent method of monitoring
       Recovery Act funds;
    Obtained and exhibited all media and supporting documentation on monitoring and
       recapture, including HUD’s weekly reports of HUD’s Office Office of Field Policy and
       Management.
    We reviewed grant amounts awarded to the region’s housing authorities and
       judgmentally selected the largest five for review. For these five, we reviewed all
       Recovery Act formula and competitive grant awarded them. In total, we reviewed 5 of
       the 53 formula grants that PIH in Region 1 monitored and 15 of the 19 competitive grants
       that it monitored. The review encompassed 55 percent of the formula grant awards
       monitored and 96 percent of the competitive grant awards monitored. The grant amounts
       are as follows:
                             Formula
                                              Amount of        Formula grant        # of              Amount of        Competitive grant
       PHA Recovery Act       awards
                                             formula grant   amount disbursed    competitive       competitive grant   amount disbursed
           sample           sampled in
                                                sample       as of 12//31/2010     awards            grant sample      as of 12//31/2010
                             Region 1
       Boston Housing
       Authority                         1   33,329,733.00      22,635,814.00                  4      40,211,241.00         7,932,635.00
       Cambridge
       Housing Authority                 1    4,366,651.00        2,668,378.00                 3      21,712,470.00       10,429,362.00
       New Bedford
       Housing Authority                 1    4,860,197.00        4,860,197.00                 4       5,067,443.00          761,703.00
       Providence Housing
       Authority                         1    5,108,903.00        4,844,241.00                 0                   0                   0
       New Haven
       Housing Authority                 1    6,045,769.00        4,682,517.00                 4      22,210,366.00       13,391,220.00

       Total sample                      5   53,711,253.00      79,025,120.00              15         89,201,520.00       33,005,904.00


         For those grants selected, obtained checklists and initiation, environmental compliance,
          procurement, and grant administration documents, including information that would aid
          the auditors in ensuring that the grant reviews were transparent, accurate, and timely.

We conducted the audit in accordance with generally accepted government auditing standards.
Those standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our audit


                                                                    9
objective(s). We believe that the evidence obtained provides a reasonable basis for our findings
and conclusions based on our audit objective.




                                               10
                               INTERNAL CONTROLS

Internal control is a process adopted by those charged with governance and management,
designed to provide reasonable assurance about the achievement of the organization’s mission,
goals, and objectives with regard to

      Effectiveness and efficiency of operations,
      Reliability of financial reporting systems,
      Compliance with applicable laws and regulations, and
      Safeguarding of assets and resources.

Internal controls comprise the plans, policies, methods, and procedures used to meet the
organization’s mission, goals, and objectives. Internal controls include the processes and
procedures for planning, organizing, directing, and controlling program operations as well as the
systems for measuring, reporting, and monitoring program performance.


 Relevant Internal Controls


               We determined that the following internal controls were relevant to our audit
               objective:
                    Controls over Recovery Act program management.
                    Controls over compliance with Recovery Act monitoring policies and
                       regulations.
                    Controls over Recovery Act information systems.

               We assessed the relevant controls identified above.

               A deficiency in internal control exists when the design or operation of a control does
               not allow management or employees, in the normal course of performing their
               assigned functions, the reasonable opportunity to prevent, detect, or correct (1)
               impairments to effectiveness or efficiency of operations, (2) misstatements in
               financial or performance information, or (3) violations of laws and regulations on a
               timely basis.

               We evaluated internal controls related to the audit objective in accordance with
               generally accepted government auditing standards. No weaknesses were identified
               relative to the controls identified above. Our evaluation of internal controls was not
               designed to provide assurance regarding the effectiveness of the internal control
               structure as a whole. Accordingly, we do not express an opinion on the
               effectiveness of the Authority’s internal control.




                                                 11
                       FOLLOW-UP ON PRIOR AUDITS

The Office of Audit in Region 1 has already performed six grantee (PHA) audits that dealt with
whether grantees properly obligated and expended/administered the formula/competitive grants.
The Recovery Act audits were as follows:

   1. The Hartford, CT, Housing Authority’s Plan To Replace Boilers Did Not Meet Recovery
      Act and Federal Efficiency Requirements, dated July 21, 2010, Audit Report No. 2010-
      BO-1005

   2. The Manchester Housing Authority in Manchester, CT, Obligated Its Recovery Act Grant
      Funds in a Timely Manner for Eligible Projects and Properly Supported Expenditures,
      dated September 21, 2010, Audit Report No. 2010 BO 1009

   3. The Boston MA, Housing Authority Generally Administered Its Capital Fund Recovery
      Grant as Required, dated September 27, 2010, Audit Report No. 2010-BO-1010

   4. The Cambridge, MA, Housing Authority Generally Administered Its Public Housing
      Capital Fund Stimulus (Formula) Recovery Act Funded Grant in Accordance With
      Applicable Requirements, dated November 2, 2010, Audit Report No. 2011-BO-1001

   5. The New Bedford Housing Authority, New Bedford, MA, Generally Administered Its
      Public Housing Capital Fund Stimulus Formula and Competitive Grants (Recovery Act
      Funded) in Accordance With Applicable Requirements, dated March 3, 2011, Audit
      Report No. 2011-BO-1006

   6. The New Haven CT, Housing Authority Did Not Support Cost Reasonableness for More
      Than $1.4 Million or Properly Obligate $60,000 of Its Capital Fund Stimulus Recovery
      Act Fund, dated December 17, 2010, Audit Report No. 2011-BO-1003

Four of the audits (1 through 4) on this list dealt specifically with our sample selection. For two
of these six audits, the Office of Inspector General (OIG) reported findings. The audits were the
Hartford Housing Authority in Hartford, CT, and the New Haven Housing Authority in New
Haven, CT.




                                                12
